APPENDIX “1”
1st Amendment,
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
government for a redress of grievances.
This amendment has been interpreted in Borough
of Duryea, Pa. v. Guarnieri, 564 U.S. 379 (2011) and
Martinez, supra.
5th Amendment
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a grand jury, except in cases
arising in the land or naval forces, or in the militia,
when in actual service in time of war or public
danger; nor shall any person be subject for the
same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.

Page 56

The analysis of substantive rights are limited to
question previously raised or resolve and when
“liberty” is interpreted precludes relief that failed to
provide adequate notice. See Timbs, supra, at 69092, 695.
10th Amendment
The powers not delegated to the United States by
the Constitution, nor prohibited by it to the states,
are reserved to the states respectively, or to the
people.
To enforce issues purported to have been raised
in a state court as the breach of contract claims it
must be established by the record and this Court as
the USSC would review pure state law questions.
See No Waterworks v. L.A. Sugar, 125 U.S. 18, 29
(1888).
Article I, Section 8, Clause 9.
To constitute tribunals inferior to the Supreme
Court;
Established law must applied and follow the
same way in every court. See
Molina-Martinez v. United States, 136 S.Ct. 1338,
1342, 1344, 1347-48 (2016); Compare, Martin u.
Hunter’s Lessee, 14 U.S. 304, 347-48 (1816) {Martin).
Page 57

Art. I, Sect. § 18, Cl. 8,
Article 1, Section 8, Clause 18.
To make all Laws which shall be necessary and
proper for carrying into Execution the foregoing
Powers, and all other Powers vested by this
Constitution in the Government of the United
States, or in any Department or Officer thereof.
This provision was interpreted in United States v
Comstock, 560 U.S. 126 (2010).
Article IV, Section §§ 1-2
Section 1.
Full faith and credit shall be given in each state to
the public acts, records, and judicial proceedings of
every other state. And the Congress may by general
laws prescribe the manner in which such acts,
records, and proceedings shall be proved, and the
effect thereof.
Section 2.
The citizens of each state shall be entitled to all
privileges and immunities of citizens in the several
states.
A person charged in any state with treason, felony,
or other crime, who shall flee from justice, and be
found in another state, shall on demand of the
executive authority of the state from which he fled,

Page 58

be delivered up, to be removed to the state having
jurisdiction of the crime.
No person held to service or labor in one state,
under the laws thereof, escaping into another, shall.
in consequence of any law or regulation therein, be
discharged from such service or labor, but shall be
delivered up on claim of the party to whom such
service or labor may be due.
Moor, supra has interpreted this provision under
diversity jurisdiction.
Article VI, Section § 2
This Constitution and laws of the United States
which shall be made in Pursuance thereof; and all
treaties made, or which shall be made, under the
Authority of the United States, shall be supreme
Law of the Land; and the Judges in every state
shall be bound thereby, any Thing in the
Constitution or Laws of any State to the contrary
notwithstanding.
Crosby and Exceptional Child interpreted this
provision.

Page 59

FEDERAL STATUTES
28 U.S.C. § 1291,
The courts of appeals (other than the United
States Court of Appeals for the Federal Circuit)
shall have jurisdiction of appeals from all final
decisions of the district courts of the United States, the
United States District Court for the District of the
Canal Zone, the District Court of Guam, and
the District Court of the Virgin Islands, except where
a direct review may be had in the
Supreme Court. The jurisdiction of the United States
Court of Appeals for the Federal Circuit shall be
limited to the jurisdiction described in sections
1292(c) and (d) and 1295 of this title.
(June 25, 1948, ch. 646, 62 Stat. 929: Oct. 31, 1951,
ch. 655, §D48, 65 Stat. 726: Pub. L. 85-508.
$□ 12(e). July 7, 1958, 72 Stat. 348: Pub. L. 97-164,
title I, SD124, Apr. 2, 1982, 96 Stat. 36.)
McCauley II interpreted this statute as nullifying
review when, federal “not California” decisions are
void.
28 U.S.C. § 1292,
Interlocutory Appeals
(a) Except as provided in subsections (c) and (d) of
this section, the courts of appeals shall have
jurisdiction of appeals from:
Page 60

(1)
Interlocutory orders of the district courts of
the United States, the United States District Court for
the District of the Canal Zone, the District Court of
Guam, and the District Court of the Virgin Islands,
or of the judges thereof, granting, continuing,
modifying, refusing or dissolving injunctions, or
refusing to dissolve or modify injunctions, except
where a direct review may be had in the
Supreme Court;
(2)
Interlocutory orders appointing receivers, or
refusing orders to wind up receiverships or to take
steps to accomplish the purposes thereof, such as
directing sales or other disposals of property;
(3)
Interlocutory decrees of such district courts or the
judges thereof determining the rights and liabilities
of the parties to admiralty cases in which appeals
from final decrees are allowed.
(b)
When a district judge, in making in a civil action an
order not otherwise appealable under this section,
shall be of the opinion that such order involves a
Page 61

controlling question of law as to which there is
substantial ground for difference of opinion and that
an immediate appeal from the order may materially
advance the ultimate termination of the litigation,
he shall so state in writing in such order.
The Court of Appeals which would have jurisdiction
of an appeal of such action may thereupon, in its
discretion, permit an appeal to be taken from such
order, if application is made to it within ten days
after the entry of the order: Provided, however, That
application for an appeal hereunder shall not stay
proceedings in the district court unless
the district judge or the Court of Appeals or a judge
thereof shall so order.
(c)The United States Court of Appeals for the
Federal Circuit shall have exclusive jurisdiction—
(1)
of an appeal from an interlocutory order or decree
described in subsection (a) or (b) of this section in
any case over which the court would have
jurisdiction of an appeal under section 1295 of this
title: and
(2)
of an appeal from a judgment in a civil action for
patent infringement which would otherwise be
appealable to the United States Court of Appeals for
Page 62

the Federal Circuit and is final except for an
accounting.
(d)
(1)
When the chief judge of the Court of International
Trade issues an order under the provisions of section
256(b) of this title, or when any judge of
the Court of International Trade, in issuing any
other interlocutory order, includes in the order a
statement that a controlling question of law is
involved with respect to which there is a substantial
ground for difference of opinion and that an
immediate appeal from that order may materially
advance the ultimate termination of the litigation,
the United States Court of Appeals for the Federal
Circuit may, in its discretion, permit an appeal to be
. taken from such order, if application is made to
that Court within ten days after the entry of such
order.
(2)
When the chief judge of the United States Court of
Federal Claims issues an order under section 798(b)
of this title, or when any judge of the United States
Court of Federal Claims, in issuing an interlocutory
order, includes in the order a statement that a
controlling question of law is involved with respect
Page 63

to which there is a substantial ground for difference
of opinion and that an immediate appeal from that
order may materially advance the ultimate
termination of the litigation, the United States
Court of Appeals for the Federal Circuit may, in its
discretion, permit an appeal to be taken from such
order, if application is made to that Court within ten
days after the entry of such order.
(3)
Neither the application for nor the granting of an
appeal under this subsection shall stay proceedings
in the Court of International Trade or in the Court of
Federal Claims, as the case may be, unless a stay is
ordered by a judge of the Court of International
Trade or of the Court of Federal Claims or by
the United States Court of Appeals for the Federal
Circuit or a judge of that court.
(4)
(A)
The United States Court of Appeals for the Federal
Circuit shall have exclusive jurisdiction of an appeal
from an interlocutory order of a district court of the
United States, the District Court of Guam, the District
Court of the Virgin Islands, or the District Court for
the Northern Mariana Islands, granting or denying,
in whole or in part, a motion to transfer an action to
Page 64

the United States Court of Federal
Claims under section 1631 of this title.
(B)
When a motion to transfer an action to the Court of
Federal Claims is filed in a district court, no further
proceedings shall be taken in the district court until
60 days after the court has ruled upon the motion. If
an appeal is taken from the district court’s grant or
denial of the motion, proceedings shall be further
stayed until the appeal has been decided by
the Court of Appeals for the Federal Circuit. The
stay of proceedings in the district court shall not bar
the granting of preliminary or injunctive relief,
where appropriate and where expedition is
reasonably necessary. However, during the period in
which proceedings are stayed as provided in this
subparagraph, no transfer to the Court of Federal
Claims pursuant to the motion shall be carried out.
(e)

The Supreme Court may prescribe rules, in
accordance with section 2072 of this title, to provide
for an appeal of an interlocutory decision to
the courts of appeals that is not otherwise provided
for under subsection (a), (b), (c), or (d).
(June 25, 1948, ch. 646, 62 Stat. 929: Oct. 31, 1951
ch. 655, §D49, 65 Stat. 726: Pub. L. 85-508.
Page 65

§□ 12(e), July 7, 1958, 72 Stat. 348: Pub. L. 85919. Sept. 2, 1958, 72 Stat. 1770: Pub. L. 97-164,
§□125. Apr. 2, 1982, 96 Stat. 36: Pub. L. 98-620. title
IV. SD412. Nov. 8, 1984, 98 Stat. 3362: Pub. L. 100702. title V, §D501. Nov. 19, 1988, 102 Stat. 4652: Pub.
L. 102-572, title I, SD101. title IX, §§□ 902(b),
906(c), Oct. 29, 1992, 106 Stat. 4506. 4516, 4518.)
The BAP for the 6th Cir. recently interpreted this
statute so as to cause review that advanced the
proceedings, even if never resolved, before. In re
Linda J. Lane, No. 18-8042 (6th Cir. BAP April 29,
2019).
28 U.S.C. § 1927,
Any attorney or other person admitted to conduct
cases in any court of the United States or any
Territory thereof who so multiplies the proceedings
in any case unreasonably and vexatiously may be
required by the court to satisfy personally the excess
costs, expenses, and attorneys’ fees reasonably
incurred because of such conduct.
(June 25, 1948, ch. 646, 62 Stat. 957: Pub. L. 96-349.
§□3. Sept. 12, 1980, 94 Stat. 1156.)
The statute is worded so that, if plausibility is
lacking F.D. Rich Co. holds the filing party
responsible where as California law and Eng would
not. F.D. Rich Co. v. United States ex rel Industrial
Lumber Co., 417 U.S. 116, 129 (1974); Compare,
Eng v. Brown, No. D071773 (March 22, 2018) {Eng).
Page 66

42 U.S. C. §1981.
Equal rights under the law (a) Statement of
equal rights
All persons within the jurisdiction of the United
States shall have the same right in every State and
Territory to make and enforce contracts, to sue, be
parties, give evidence, and to the full and equal
benefit of all laws and proceedings for the security
of persons and property as is enjoyed by white
citizens, and shall be subject to like punishment,
pains, penalties, taxes, licenses, and exactions of
every kind, and to no other.
(b) “Make and enforce contracts” defined
For purposes of this section, the term “make and
enforce contracts” includes the making,
performance, modification, and termination of
contracts, and the enjoyment of all benefits,
privileges, terms, and conditions of the contractual
relationship.
(c) Protection against impairment
The rights protected by this section are protected
against impairment by nongovernmental
discrimination and impairment under color of
State law.

Page 67

(R.S. §01977; Pub. L. 102-166. title I. §0101, Nov. 21
1991, 105 Stat. 1071.)
This statute applies to contract and breaches
thereof. See Patterson v. McLean Credit Union,
491 U.S. 164, 171-72, 176-77 (1989) {Patterson).

42 U.S. C. § 1981a,
Damages in cases of intentional
discrimination in employment (a) Right of
recovery (1) Civil rights
In an action brought by a complaining party under
section 706 or 717 of the Civil Rights Act of 1964
[42 U.S.C. 2000e-5, 2000e—16] against a respondent
who engaged in unlawful intentional
discrimination (not an employment practice that is
unlawful because of its disparate impact)
prohibited under section 703, 704, or 717 of the Act
f42 U.S.C. 2000e-2. 2000e-3, 2000e-16], and
provided that the complaining party cannot
recover under section 1981 of this title, the
complaining party may recover compensatory and
punitive damages as allowed in subsection (b), in
addition to any relief authorized by section 706(g)
of the Civil Rights Act of 1964, from the
respondent.

Page 68

(2) Disability
In an action brought by a complaining party under
the powers, remedies, and procedures set forth in
section 706 or 717 of the Civil Rights Act of 1964
142 U.S.C. 2000e-5. 2000e—16] (as provided in
section
107(a) of the Americans with Disabilities Act of
1990
(42 U.S.C. 12117(a)), and section 794a(a)(l) of title 29,
respectively) against a respondent who engaged in
unlawful intentional discrimination (not an
employment practice that is unlawful because of its
disparate impact) under section 791 of title 29 and
the regulations implementing section 791 of title 29,
or who violated the requirements of section 791 of
title 29 or the regulations implementing section 791
of title 29 concerning the provision of a reasonable
accommodation, or section 102 of the Americans
with Disabilities Act of 1990 (42 U.S.C. 12112), or
committed a violation of section 102(b)(5) of the Act,
against an individual, the complaining party may
recover compensatory and punitive damages as
allowed in subsection (b), in addition to any relief
authorized by section 706(g) of the Civil Rights Act
of 1964, from the respondent.

Page 69

(3) Reasonable accommodation and good faith
effort
In cases where a discriminatory practice involves
the provision of a reasonable accommodation
pursuant to section 102(b)(5) of the Americans with
Disabilities Act of 1990 [42 U.S.C. 12112(b)(5)! or
regulations implementing section 791 of title 29.
damages may not be awarded under this section
where the covered entity demonstrates good faith
efforts, in consultation with the person with the
disability who has informed the covered entity that
accommodation is needed, to identify and make a
reasonable accommodation that would provide such
individual with an equally effective opportunity
and would not cause an undue hardship on the
operation of the business.
(b) Compensatory and punitive damages (1)
Determination of punitive damages
A complaining party may recover punitive damages
under this section against a respondent (other than
a government, government agency or political
subdivision) if the complaining party demonstrates
that the respondent engaged in a discriminatory
practice or discriminatory practices with malice or
with reckless indifference to the federally protected
rights of an aggrieved individual.
Page 70

*

(2)
Exclusions from compensatory damages
Compensatory damages awarded under this section
shall not include backpay, interest on backpay, or
any other type of relief authorized under section
706(g) of the Civil Rights Act of 1964 f42 U.S.C.
2000e-5(gYl.
(3)
LimitationsThe sum of the amount of
compensatory damages awarded under this section
for future pecuniary losses, emotional pain,
suffering, inconvenience, mental anguish, loss of
enjoyment of life, and other nonpecuniary losses,
and the amount of punitive damages awarded
under this section, shall not exceed, for each
complaining party—
(A)
in the case of a respondent who has more than 14
and fewer than 101 employees in each of 20 or
more calendar weeks in the current or preceding
calendar year, $50,000; (B)
in the case of a respondent who has more than
100 and fewer than 201 employees in each of 20
or more calendar weeks in the current or
preceding calendar year, $100,000; and
III

Page 71

(C)
in the case of a respondent who has more than 200
and fewer than 501 employees in each of 20 or more
calendar weeks in the current or preceding
calendar year, $200,000; and
(D)
in the case of a respondent who has more than
500 employees in each of 20 or more calendar
weeks in the current or preceding calendar year,
$300,000.
(4) Construction
Nothing in this section shall be construed to limit
the scope of, or the relief available under, section
1981 of this title.
(c) Jury trial If a complaining party seeks
compensatory or punitive damages under this
section—
(1)

any party may demand a trial by jury;

and
(2)
the court shall not inform the jury of
the limitations described in subsection (b)(3).
(d) DefinitionsAs used in this section:
Page 72

(1) Complaining partyThe term “complaining
party” means—
in the case of a person seeking to bring an
(A)
action under subsection (a)(1), the Equal
Employment Opportunity Commission, the
Attorney General, or a person who may bring an
action or proceeding under title VII of the Civil
Rights Act of 1964 (42 U.S.C. 2000e et seq.); or
in the case of a person seeking to bring an
(B)
action under subsection (a)(2), the Equal
Employment Opportunity Commission, the
Attorney General, a person who may bring an
action or proceeding under section 794a(a)(l) of title
29, or a person who may bring an action or
proceeding under title I of the Americans with
Disabilities Act of 1990 142 U.S.C. 12111 et seq.].
(2) Discriminatory practice
The term “discriminatory practice” means the
discrimination described in paragraph (1), or
the discrimination or the violation described in
paragraph (2), of subsection (a).
(R.S. §E1977A, as added Pub. L. 102-166. title I,
§0102, Nov. 21, 1991, 105 Stat. 1072.)
This statute applies to define discrimination.
See Patterson; Circuit City.
42 U.S.C. § 1983,
Page 73

Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the
Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other
proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section,
any Act of Congress applicable exclusively to the
District of Columbia shall be considered to be a
statute of the District of Columbia.
(R.S. § 1979; Pub. L. 96-170, §01, Dec. 29, 1979, 93
Stat. 1284: Pub. L. 104-317. title III. §03O9(c), Oct. 19,
1996, 110 Stat. 3853.1
This statute allows Constitution relief to be
raised within it. Borough of Duryea, Pa. v.
Guarnieri, 564 U.S. 379 (2011).
42 U.S.C. § 1396a
(a)CONTENTS A State plan for medical
assistance must—
(1)
Page 74

provide that it shall be in effect in all political
subdivisions of the State, and, if administered by
them, be mandatory upon them;
(2)
provide for financial participation by the State equal
to not less than 40 per centum of the non-Federal
share of the expenditures under the plan with
respect to which payments under section 1396b of this
title are authorized by this subchapter; and,
effective July 1, 1969, provide for financial
participation by the State equal to all of such nonFederal share or provide for distribution of funds
from Federal or State sources, for carrying out the
State plan, on an equalization or other basis which
will assure that the lack of adequate funds from
local sources will not result in lowering the amount,
duration, scope, or quality of care and services
available under the plan;
(3)
provide for granting an opportunity for a fair
hearing before the State agency to any individual
whose claim for medical assistance under the plan is
denied or is not acted upon with reasonable
promptness;
(4)
provide (A) such methods
of administration (including methods relating to the
establishment and maintenance of personnel
standards on a merit basis, except that the
Secretary shall exercise no authority with respect to
the selection, tenure of office, and compensation of
any individual employed in accordance with such
methods, and including provision for utilization of
Page 75

professional medical personnel in
the administration and, where administered locally,
supervision of administration of the plan) as are
found by the Secretary to be necessary for the
proper and efficient operation of the plan, (B) for the
training and effective use of paid subprofessional
staff, with particular emphasis on the full-time or
part-time employment of recipients and other
persons of low income, as community service aides,
in the administration of the plan and for the use of
nonpaid or partially paid volunteers in a social
service volunteer program in providing services to
applicants and recipients and in assisting any
advisory committees established by the State
agency, (C) that each State or local officer,
employee, or independent contractor who is
responsible for the expenditure of substantial
amounts of funds under the State plan, each
individual who formerly was such an officer,
employee, or contractor, and each partner of such an
officer, employee, or contractor shall be prohibited
from committing any act, in relation to any activity
under the plan, the commission of which, in
connection with any activity concerning the United
States Government, by an officer or employee of the
United States Government, an individual who was
such an officer or employee, or a partner of such an
officer or employee is prohibited by
section 207 or 208 of title 18, and (D) that each State
or local officer, employee, or independent contractor
who is responsible for selecting, awarding, or
otherwise obtaining items and services under the
State plan shall be subject to safeguards against
conflicts of interest that are at least as stringent as
Page 76

the safeguards that apply under chapter 21 of title
41 to persons described in section 2102(a)(3) of title 41:
(5)
either provide for the establishment or
designation of a single State agency to
administer or to supervise
the administration of the plan; or provide for
the establishment or designation of a single
State agency to administer or to supervise
the administration of the plan, except that the
determination of eligibility for medical
assistance under the plan shall be made by the
State or local agency administering the State
plan approved under subchapter I or XVI
(insofar as it relates to the aged) if the State is
eligible to participate in the State plan
program established under subchapter XVI, or
by the agency or agencies administering the
supplemental security income program
established under subchapter XVI or the State
plan approved under part A of subchapter IV
if the State is not eligible to participate in the
State plan program established under
subchapter XVI;
(6)
provide that the State agency will make such
reports, in such form and containing such
information, as the Secretary may from time to time
require, and comply with such provisions as
the Secretary may from time to time find necessary
to assure the correctness and verification of such
reports;
(7)provide—
Page 77

(A)safeguards which restrict the use or disclosure of
information concerning applicantsand recipients to
purposes directly connected with—
(i)
the administration of the plan; and
(ii)
the exchange of information necessary to certify or
verify the certification of eligibility of children for
free or reduced price breakfasts under
the Child Nutrition Act of 1966 [42 U.S.C. 1771 et
seq.] and free or reduced price lunches under the
Richard B. Russell National School Lunch Act [42
U.S.C. 1751 et seq.], in accordance with section 9(b)
of that Act [42 U.S.C. 1758(b~)l. using data standards
and formats established by the State agency; and
(B)that, notwithstanding the Express Lane option
under subsection (e)(13), the State may enter into an
agreement with the State agency administering the
school lunch program established under the Richard
B. Russell National School Lunch Act under which
the Stateshall establish procedures to ensure that—
(i)
a child receiving medical assistance under the State
plan under this subchapter whose family income
does not exceed 133 percent of the poverty line (as
defined in section 9902(2) of this title, including any
revision required by such section), as determined
without regard to any expense, block, or other
income disregard, applicable to a family of the size
involved, may be certified as eligible for free lunches
under the Richard B. Russell National School Lunch
Act and free breakfasts under the Child Nutrition
Act of 1966 without further application; and
Page 78

(ii)
the State agencies responsible for administering
the State plan under this subchapter, and for
carrying out the school lunch program established
under the Richard B. Russell National School Lunch
Act (42 U.S.C. 1751 et seq.) or the school breakfast
program established by section 4 of the Child
Nutrition Act of 1966 (42 U.S.C. 1773), cooperate in
carrying out paragraphs (3)(F) and (15) of section
9(b) of that Act f42 U.S.C. 1758(b)!;
(8)
provide that all individuals wishing to make
application for medical assistance under the plan
shall have opportunity to do so, and that such
assistance shall be furnished with reasonable
promptness to all eligible individuals:
Shewry interpreted this statute. Shewry u.
Arnold, 22 Cal. Rptr. 3d 488, 492 [125 Cal. App.4
186] (2004); also see Ringer, supra.
28 U.S.C. § 2101, Supreme Court; time for
appeal or certiorari; docketing; stay (a)
A direct appeal to the Supreme Court from any
decision under section 1253 of this title, holding
unconstitutional in whole or in part, any Act of
Congress, shall be taken within thirty days after
the entry of the interlocutory or final order,
judgment or decree. The record shall be made up
and the case docketed within sixty days from the
Page 79

time such appeal is taken under rules prescribed by
the Supreme Court.
(b)
Any other direct appeal to the Supreme Court
which is authorized by law, from a decision of a
district court in any civil action, suit or proceeding,
shall be taken within thirty days from the
judgment, order or decree, appealed from, if
interlocutory, arid within sixty days if final, (c)
Any other appeal or any writ of certiorari intended
to bring any judgment or decree in a civil action,
suit or proceeding before the Supreme Court for
review shall be taken or applied for within ninety
days after the entry of such judgment or decree. A
justice of the Supreme Court, for good cause
shown, may extend the time for applying for a writ
of certiorari for a period not exceeding sixty days.
(d)
The time for appeal or application for a writ of
certiorari to review the judgment of a State court in
a criminal case shall be as prescribed by rules of
the Supreme Court.

Page 80

(e)

An application to the Supreme Court for a writ of
certiorari to review a case before judgment has
been rendered in the court of appeals may be
made at any time before judgment.
(f)
In any case in which the final judgment or decree
of any court is subject to review by the Supreme
Court on writ of certiorari, the execution and
enforcement of such judgment or decree may be
stayed for a reasonable time to enable the party
aggrieved to obtain a writ of certiorari from the
Supreme Court. The stay may be granted by a
judge of the court rendering the judgment or
decree or by a justice of the Supreme Court, and
may be conditioned on the giving of security,
approved by such judge or justice, that if the
aggrieved party fails to make application for such
writ within the period allotted therefor, or fails to
obtain an order granting his application, or fails to
make his plea good in the Supreme Court, he shall
answer for all damages and costs which the other
party may sustain by reason of the stay.
(g)
The time for application for a writ of certiorari to
review a decision of the United States Court of
Page 81

Appeals for the Armed Forces shall be as
prescribed by rules of the Supreme Court.
(June 25, 1948, ch. 646, 62 Stat. 961: May 24, 1949,
ch. 139, §0106, 63 Stat. 104: Pub. L. 98-209. §01O(b),
Dec. 6, 1983, 97 Stat. 1406: Pub. L. 100-352. §05(b),
June 27, 1988, 102 Stat. 663: Pub. L. 103-337, div. A.
title IX. §0924(d)(l)(C), Oct. 5, 1994, 108 Stat. 2832.)
This statute governs the time for file this
certiorari and is not jurisdiction as the day of the
act is not included. See Union Nat. Bank u. Lamb,
337 U.S. 38, 40-41 no. 6 (1949).
CALIFORNIA
CCP § 340.6 (a)
CHAPTER 3. The Time of Commencing Actions
Other Than for the Recovery of Real Property [335 349.4]
( Chapter 3 enacted 1872. )
340.6.
(a) An action against an attorney for a wrongful act
or omission, other than for actual fraud, arising in
the performance of professional services shall be
commenced within one year after the plaintiff
discovers, or through the use of reasonable diligence
should have discovered, the facts constituting the
wrongful act or omission, or four years from the date
of the wrongful act or omission, whichever occurs
first. If the plaintiff is required to establish his or
Page 82

her factual innocence for an underlying criminal
charge as an element of his or her claim, the action
shall be commenced within two years after the
plaintiff achieves post conviction exoneration in the
form of a final judicial disposition of the criminal
case. Except for a claim for which the plaintiff is
required to establish his or her factual innocence, in
no event shall the time for commencement of legal
action exceed four years except that the period shall
be tolled during the time that any of the following
exist:
(1) The plaintiff has not sustained actual injury.
(2) The attorney continues to represent the plaintiff
regarding the specific subject matter in which the
alleged wrongful act or omission occurred.
(3) The attorney willfully conceals the facts
constituting the wrongful act or omission when such
facts are known to the attorney, except that this
subdivision shall toll only the four-year limitation.
(4) The plaintiff is under a legal or physical
disability which restricts the plaintiff s ability to
commence legal action.
(b) In an action based upon an instrument in writing,
the effective date of which depends upon some act or
event of the future, the period of limitations
provided for by this section shall commence to run
upon the occurrence of that act or event.
(Amended by Stats. 2009, Ch. 432, Sec. 2. (AB 316)
Effective January 1, 2010.)

Page 83

CCP § 410.60,
Section 410.60. (Added by Stats. 1969, Ch. 1610.)
Cite as: Cal. Civ. Proc. Code §410.60.

In an action against a corporation which has
forfeited its charter or right to do business, or has
dissolved, the court in which the action is pending
has jurisdiction over all the trustees of such
corporation and of its stockholders or members from
the time summons is served on one of the trustees
as provided by Chapter 4 (commencing with Section
413.10).

CCP § 430.10,
ARTICLE 1. Objections to Pleadings [430.10 430.90]
(Article 1 added by Stats. 1971, Ch. 244.)

430.10.
The party against whom a complaint or cross­
complaint has been filed may object, by demurrer or
answer as provided in Section 430.30, to the
pleading on any one or more of the following
grounds:
Page 84

(a) The court has no jurisdiction of the subject of the
cause of action alleged in the pleading.
(b) The person who filed the pleading does not have
the legal capacity to sue.
(c) There is another action pending between the
same parties on the same cause of action.
(d) There is a defect or misjoinder of parties.
(e) The pleading does not state facts sufficient to
constitute a cause of action.
(f) The pleading is uncertain. As used in this
subdivision, “uncertain” includes ambiguous and
unintelligible.
'

(g) In an action founded upon a contract, it cannot
be ascertained from the pleading whether the
contract is written, is oral, or is implied by conduct.
(h) No certificate was filed as required by Section
411.35.
(i) No certificate was filed as required by Section
411.36.
(Amended by Stats. 1993, Ch. 456, Sec. 3. Effective
January 1, 1994.)

CBPC § 6067.
6067. Every person on his admission shall take an
oath to support the Constitution of the United
States and the Constitution of the State of
California, and faithfully to discharge the duties of
any attorney at law to the best of his knowledge and
Page 85

ability. A certificate of the oath shall be indorsed
upon his license.

California Welfare and Institution Code
Cal. Welf & Inst. Code § 10962
The applicant or recipient or the affected county,
within one year after receiving notice of the
director’s final decision, may file a petition with
the superior court, under the provisions of Section
1094.5 of the Code of Civil Procedure, praying for
a review of the entire proceedings in the matter,
upon questions of law involved in the case. Such
review, if granted, shall be the exclusive remedy
available to the applicant or recipient or county for
review of the director’s decision. The director shall
be the sole respondent in such proceedings.
Immediately upon being served the director shall
serve a copy of the petition on the other party
entitled to judicial review and such party shall
have the right to intervene in the proceedings.
(a) If regulations require a public or private agency
to write a position statement concerning the issues
in question in a fair hearing, or if the public or
private agency chooses to develop that statement,
not less than two business days before the date of a
hearing provided for pursuant to this chapter, the
public or private agency shall make available to the
applicant for, or recipient of, public social services
Page 86

requesting a fair hearing, a copy of the public or
private agency’s position statement on the
forthcoming hearing. The public or private agency
shall make the copy available to the applicant or
recipient at the county welfare department or via
United States mail, or, upon request, through
electronic means. Except as provided in subdivision
(c), if the applicant or recipient requests a position
statement to be delivered through electronic means,
the position statement shall be delivered through
secure electronic means if required by state or
federal privacy laws. A public or private agency
shall be required to comply with this section only if
the public or private agency has received a 10-day
prior notice of the date and time of the scheduled
hearing, (b) If the public or private agency does not
make the position statement available not less than
two business days before the hearing or if the
public or private agency decides to modify the
position statement, the hearing shall be postponed
upon the request of the applicant or recipient, if an
applicant or recipient agrees to waive the right to
obtain a decision on the hearing within the
deadline that would otherwise be applicable under
regulations. A postponement for reason of the
public or private agency not making the position
statement available within not less than two
business days shall be deemed a postponement for
good cause for purposes of determining eligibility to
Page 87

any applicable benefits pending disposition of the
hearing.
(c) (1) A public or private agency shall not be
required to make a copy of its position statement
available to an applicant or recipient through
electronic means if the agency submits a report by
December 31 of each year to the State Department
of Social Services that includes both of the
following: (A) The barriers the agency has identified
that substantially impede or prohibit the electronic
provision of hearing documents.
(B) The steps the agency is taking to address these
barriers.
(2) This subdivision shall become inoperative on
the date that the statewide electronic case
management system administered by the State
Department of Social Services becomes operational
and has the capacity to provide position
statements to claimants through secure electronic
means.
(Amended by Stats. 2016, Ch. 522, Sec. 1. Effective
January 1, 2017.)
Cal. Welf Code § 10952.5
(a) If regulations require a public or private agency
to write a position statement concerning the issues
in question in a fair hearing, or if the public or
private agency chooses to develop that statement,
Page 88

not less than two business days before the date of a
hearing provided for pursuant to this chapter, the
public or private agency shall make available to the
applicant for, or recipient of, public social services
requesting a fair hearing, a copy of the public or
private agency’s position statement on the
forthcoming hearing. The public or private agency
shall make the copy available to the applicant or
recipient at the county welfare department or via
United States mail, or, upon request, through
electronic means. Except as provided in subdivision
(c), if the applicant or recipient requests a position
statement to be delivered through electronic means,
the position statement shall be delivered through
secure electronic means if required by state or
federal privacy laws. A public or private agency
shall be required to comply with this section only if
the public or private agency has received a 10-day
prior notice of the date and time of the scheduled
hearing.
(b) If the public or private agency does not make the
position statement available not less than two
business days before the hearing or if the public or
private agency decides to modify the position
statement, the hearing shall be postponed upon the
request of the applicant or recipient, if an applicant
or recipient agrees to waive the right to obtain a
decision on the hearing within the deadline that
would otherwise be applicable under regulations. A
postponement for reason of the public or private
agency not making the position statement available
within not less than two business days shall be
deemed a postponement for good cause for purposes
Page 89

of determining eligibility to any applicable benefits
pending disposition of the hearing.
(c) (1) A public or private agency shall not be
required to make a copy of its position statement
available to an applicant or recipient through
electronic means if the agency submits a report by
December 31 of each year to the State Department
of Social Services that includes both of the following:
(A) The barriers the agency has identified that
substantially impede or prohibit the electronic
provision of hearing documents.
(B) The steps the agency is taking to address these
barriers.
(2) This subdivision shall become inoperative on the
date that the statewide electronic case management
system administered by the State Department of
Social Services becomes operational and has the
capacity to provide position statements to claimants
through secure electronic means.
(Amended by Stats. 2016, Ch. 522, Sec. 1. Effective
January 1, 2017.)

Page 90

FEDERAL RULES OF CIVIL PROCEDURE
Rule 10. Form of Pleadings
28
CAPTION; NAMES OF PARTIES. Every
pleading must have a caption with the court's
name, a title, a file number, and a Rule 7(a)
designation. The title of the complaint must name
all the parties; the title of other pleadings, after
naming the first party on each side, may refer
generally to other parties.
29

Rule 18. Joinder of Claims

(a) IN GENERAL. A party asserting a claim,
counterclaim, crossclaim, or third-party claim may
join, as independent or alternative claims, as many
claims as it has against an opposing party.
(b) Joinder of Contingent Claims. A party may
join two claims even though one of them is
contingent on the disposition of the other; but the
court may grant relief only in accordance with the
parties’ relative substantive rights. In particular, a
plaintiff may state a claim for money and a claim to
set aside a conveyance that is fraudulent as to that
plaintiff, without first obtaining a judgment for the
money.

Notes
(As amended Feb. 28, 1966, eff. July 1, 1966; Mar. 2,
1987, eff. Aug. 1, 1987; Apr. 30, 2007, eff. Dec. 1,
2007.)

Page 91

APPENDIX “2”
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
August 19, 2019
Robert L. Jarrett
103 4th St., #302
Los Angeles, CA 90012
RE: Jarrett v. State Bar of California
CASC No. 5254851
Dear Mr. Jarrett:
Returned are copies of the petition for a writ of
certiorari in the above-entitled case
postmarked on August 6,2019 and received on
August 9, 2019, which fails to comply
with the Rules of this Court.
You must pay the $300 docket fee.
The petition and appendix must be in booklet format
and on paper that measures 6 1/8 by 9 114 inches.
Rule 33.1(a).
The petition must bear a suitable cover consisting of
heavy paper, front and back. Rule 33.1(e).
The text of the petition and appendix must be
typeset in a Century family (e.g.,
Century Expanded, New Century Schoolbook, or
Century Schoolbook) 12-point type
Page 92

with 2-point or more leading between lines. The
typeface of footnotes must be 10-point
or larger with 2-point or more leading between lines.
Rule 33.1(b).
Kindly correct the petition and appendix so that it
complies in all respects with the
Rules of this Court and return it to this Office
promptly so that it may be docketed.
Unless the petition is submitted to this Office in
corrected form within 60 days of the date of this
letter, the petition will not be filed. Rule 14.5.
Enclosed are a copy of the Rules of the Court and
memorandum concerning the preparation of a paid
petition in booklet format.
V/hen making the required corrections to a petition,
no change to the substance of the petition may be
made.
In addition to the forty copies of the booklet-format
petition and appendix, you must also submit one
copy of the documents on 8 Vi by 11-inch paper. Rule
33.1(f).
You must submit a certificate stating that the
petition complies with the word limitation. The
certificate must state the number of words in the
document and must be separate from the petition.
Rule 33.1(h). If the certificate is signed by a person
other than a member of the Bar of this Court, the
counsel of record, or the unrepresented party, it
must contain a notraized affidavit or declaration in
compliance with 28 U.S.C. 1746.
Sincerely,
Scott S. Harris
Lisa Nesbitt
(202) 479-3038
Page 93

APPENDIX “3”
FILED MAY 15, 2019
Jorge Navarrete Clerk of Court
S254851
IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re the Accusation of ROBERT L. JARRETT, JR.
Against an Attorney
The petition is denied.
CANTIL.SAKAUYE
Chief Justice

Page 94

APPENDIX “4”
IN RE THE ACCUSATION OF ROBERT L.
JARRETT JR.
OFFICE OF GENERAL COUNSEL
The State Bar of California
180 Howard Street,
San Francisco, CA 94105
415-538-2575
Personal and Confidential Complaint Review Unit
January 25, 2019
Robert Jarrett Jr.
103 W 4th Street #302
Los Angeles, CA 90013
RE: Case No. L 8-20900
Respondent(s): Parjack Ghaderi, Kamala Harris,
Jonathan Rich, Richard Waldow
Dear Mr. Jarrett Jr.,
The Complaint Review Unit received your
correspondence on November !3, zoj.g, requesting
reconsideration of the decision to close your
complaint. An attorney reviewed all the
information provided and has determined that there
is not a sufficient basis to recommend
reopening your complaint.
Page 95

The Complaint Review Unit will recommend
reopening a complaint when there is significant
new evidence or when we determine there is good
cause to recommend that the matter be
reopened. The State Bar Court is authorized to
impose or recommend disciplinary sanctions
only if there is clear and convincing evidenceto
establish that the attorney has committed a
violation of the Rules of Professional Conduct or the
State Bar Act. Therefore, the Complaint
Review Unit will not recommend that a matter be
reopened unless there is a reasonable
possibility that a disciplinary violation can be
proven by clear and convincing evidence.
In your complaint, you assert that Parjack Ghaderi,
an attorney with Los Angeles County
Counsel's office, filed motion(s)to dismiss and
requests for judicial notice (furu), and one of the
RJN included personal information that should have
been redacted. This was brought to district
court's attention and to date, the court has not ruled
on the redaction issue, you assert that
the motion(s) to dismiss do not deny that Mr.
Ghaderi, Kamala Harris, a former California
Attorney General and Richard Waldow, an attorney
with Los Angeles County Counsels office,
knew Jonathan Rich, an attorney with the
California Attorney General office, made changes to
an opposition to ex parte application after the filing
was accepted and that Mr. Ghaderi, Ms.
San Francisco Office
180 Howard Street
San Francisco, CA 94105
Los Angeles Office
Page 96

845 S. Figueroa Street
Los Angeles, CA 90017
Robert Jarrett Jr.
Harris and Mr. Waldow failed to report Mr. Rich's
conduct. Moreover, you assert that Mr. Rich
failed to include complainant's change of address, on
personal service and made changes to his
opposition to the ex parte application after filing
such opposition related to February 11, 2011,
was a court holiday, which Mr. Rich did not discuss
in the conference. You assert that Mr, Rich
did not report certain judicial discrimination to
Commission on Judicial Performance. Lastly, you
assert that Mr. Ghaderi and Mr. Rich used proofs of
service that violated the law and involve
moral turpitude.
By a letter dated August 14,201.8, the Office of
Chief Trial Counsel ("OCTC") closed your
complaint on the grounds that you had not stated
sufficient specific facts that could establish a
disciplinary violation against Mr. Ghaderi, Ms.
Harris, Mr. Waldow and Mr. Rich.
You request review of OCTC's decision to close your
complaint, in which you generally reiterate
your complaint, pose a. number of questions that
seem unrelated to the specific facts of your
complaint and do not provide any new facts. Your
request for review does not establish a good
cause to recommend that this matter be reopened
and you have not provided specific and
credible facts that would establish a violation of the
professional rules. As explained by OCTC,
mere speculation or allegations of misconduct are
not sufficient to warrant a disciplinary
Page 97

investigation. In order to bring disciplinary charges
against an attorney, facts must exist that
establish a reasonable possibility that a disciplinary
violation can be proven by clear and
convincing evidence' In your request for review of
OCTC's decision to close your complaint, you
do not provide specific facts or new facts that would
establish a violation of professional rules
by Mr. Ghaderi, Ms. Harris, Mr. Waldow and Mr.
Rich to re-open your complaint. We have
accordingly determined your complaint was properly
closed.
If you disagree with this decision, you may file an
accusation against the attorney with the
California Supreme Court. A copy of the applicable
rule is enclosed. (See Rule 9.1-3, subsections
(d) through (f), California Rules of Court.) If you
choose to file an accusation, you must do so
within 60 days of the date of the mailing of thjs
letter. Together with your accusation, you
should provide the Supreme Court (1) a copy of this
letter and (2) a copy of the original closing
letter from the Office of Chief Trial Counsel.
The State Bar cannot give you legal advice or
representation. If you have not already done so,
you may wish to consult with an attorney for advice
regarding any other remedies which may
be available to you. Attorneys can be located by
contacting a lawyer referral service certified
by the State Bar in your area. You may obtain a list
of State Bar certified lawyer referral services by
calling the State Bar at 866-442-2529 or by visiting
the State Bar website at:
Sincerely,
Page 98

Complaint Review Unit
Enclosure

Page 99

APPENDIX “5”
THE STATE BAR OF CALIFORNIA
OFFICE OF CHIEF TRIAL COTINSEL
INTAKE UNIT Melanie J. Lawrence, Interim Chief
Trial Counsel
845 SOUTH FIGUEROA STREET,
LOS ANGELES, CALIFORNIA 90017.2515
TELEPHONE: (213) 76s-1000
FAX: (213) 765-1 168
http ://www. calbar. ca. gov
August 14, 2018
Robert Jarrett Jr.
103 4th Street #302
Los Angeles, CA 90013

RE Inquiry Number: Respondents:
18-20900
Parjack Ghaderi
Kamala Harris
Richard Waldow
Jonathan Rich
Page 100

Dear Mr. Jarrett:
The State Bar's Offrce of Chief Trial Counsel has
reviewed your complaint against Parjack Ghaderi,
Kamala Harris, Richard Waldow and Jonathan Rich
to determine whether there are sufficient grounds to
prosecute a possible violation of the State Bar Act
and/or Rules of Professional Conduct.
You state that Mr. Ghaderi is an attorney at the Los
Angeles County Counsel's office. Ms. Harris was
the California Attorney General. Mr. Waldow is an
attorney at the Los Angeles County Counsel's
office. Mr. Rich is an attorney at the California
Attorney General's office. You filed a federal civil
lawsuit against the DHCS in approximately 2011.
You allege that a request for judicial notice
contained
personal information that should have been
redacted. You brought this to the court's attention,
but the
court has not made any ruling yet. You also allege
that a motion to dismiss filed by an opposing party
does not deny that Mr. Ghaderi, Ms. Harris, and Mr.
Waldow knew Mr. Rich made changes to an
opposition to ex parte application after the filing
was accepted. Mr. Rich also did not notify other
parties of your change of address. You allege Mr.
Ghaderi did not deny a change of address was
served
r.vith pleadings. Mr. Rich filed a motion to declare
you a vexatious litigant, which was granted in 201
1.
You believe Mr. Ghaderi, Ms. Harris, and Mr.
Waldow were required to report certain conduct of
Mr.
Page 101

Rich to the court or State Bar. You believe proofs of
service used by Mr. Ghaderi and Mr. Rich violated
the law and involve moral turpitude.
Based on our evaluation of the information
provided, we are closing your complaint. It is
misconduct for an attorney to fail to support the
Constitution and laws of the United States and of
the State of California. Here, however, there are
insufficient specific facts alleged to support the
conclusion that Mr. Ghaderi, Ms. Harris, Mr.
Waldow, or Mr. Rich violated this rule. In order to
investigate allegations of attorney misconduct, the
State Bar needs specific facts which, if proved,
would establish a violation of
the attorney's ethical duties. Conclusions based on
speculation and not supported by facts are
insufficient to warrant investigation. You have not
presented evidence that Mr. Ghaderi, Ms. Harris,
Mr. Waldow, or Mr. Rich have violated the
Constitution or laws of the United States or
California, or otherwise acted unethically. You also
have not provided any court order or other authority
requiring Mr. Ghaderi, Ms. Harris, Mr. Waldow, or
Mr. Rich to report any conduct to the court or State
Bar. Thus, we have determined that your complaint
does not present facts to support your allegations.
For these reasons, the State Bar is closing this
matter.
If you have new facts and circumstances that you
believe may change our determination to close your
complaint, you may submit a written ,tut"-".rt with
the n"*info.*-ution to the Intake unit for revierv'
Page 102

If you have any questions about *ri. p.oa"i;;;; ;"y call
Deputy Trial Counsel Drew Aresca at (213)
7 65_136g. If you reave a voice *"rrugal u" ,ir" to
ciearly identiiy the lawyer complained of, the
inquiry number assigned, and your t"l.;ir;;;;-ber
including the area code, v/e should return your call
within two business days'.
If you are not aware of new facts or circumstances
but otherwise disagree with the decision to close
your complaint, you may submit a request for
review by the state Bar's complaint Review unit'
which will review your complaint and the Intake
units decision to cross the complaint. The complaint
Review unit may reopen your complaint if-it
determines that your complaint was inappropriately
closed or that you presented new, significant
evidence to support your complaint' l.o request
review by the Complaint Review unit, you must
submit your request in writing, together with any
new evidence you wish to be considered, post­
marked within 60 days of the date of this letter to:
The State Bar of California
Complaint Review Unit
Office of General Counsel
180 Howard Street
San Francisco, CA 94105-1617
We would appreciate if you would complete a short,
anonymous survey about your experience with filing
your compraint. while your r".pa.rr", to the survey
witt not change the outcome of the complaint you
filed against ttre attorney,ih. State Bar will use your
answers to help improve the services we
Page 103

provide to the p"Ufi". itt" *u.y can be found at
http://bit'ly/StateBarSurveyl'
Thank you for bringing your concerns to the
Attention of the State Bar.
Very truly yours,
Drew Aresca
Deputy Trial Counsel DA

Page 104

5

PROOF OF SERVICE
I declare I am a party to this proceeding, over
the age of 18 years and my mailing address is 103
W. 4th Street Los Angeles, California 90013 and on
October 17, 2019 the date of mailing, I caused
service by prepaid first class U.S. mail in a sealed
envelope on the dates mentioned herein the
document or documents set forth below to be
delivered:
CORRECTED PETITION FOR WRIT OF
CERTIORARI
Service was made on the last known address or
addresses of the interested parties mentioned
below:
DEPARTMENT OF JUSTICE
c/o SOLICITOR GENERALS OFFICE
950 Pennsylvania Avenue, N.W.
WASHINGTON, DC. 20530-0001 (3 petitions)
Office of the California Attorney General
1300 “I” Street
Sacramento, California 95814-2919 (3 petitions)
Page 105

CLERK OF THE COURT
GENERAL COUNSEL
Office of the State Bar
180 Howard Street
San Francisco, California 94105
(3 petitions)
State Bar of California
845 South Figueroa Street
Los Angeles, California 90017 (3 petitions)
OFFICE OF THE COURT CLERK
CALIFORNIA SUPREME COURT
350 McAllister Street Room 1295
San Francisco, California 94102-4797 (3 petitions)
OFFICE OF THE CLERK
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, D.C. 20543 (40 petitions and one 8
1/2 by 11 petition)
I declare under penalty of perjury under the
laws of the United States of America that the
aforesaid is true, and correct. Executed this 17th of
October, 2019 in Los Angeles, California.
ROBERT L. JARIRETT, JR.
Page 106

